OFFICE OF INSPECTOR GENERAL
 For the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
FINANCIAL STATEMENTS,
INTERNAL CONTROLS, AND
COMPLIANCE FOR THE PERIOD
ENDING
SEPTEMBER 30, 2009 AND 2008

AUDIT REPORT NO. M-000-10-001-C
November 16, 2009


WASHINGTON, DC
   Office of Inspector General
    for the Millennium Challenge Corporation



November 16, 2009

Darius Mans
Acting Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, N.W.
Washington, DC 20005-2221


Subject:            Audit of the Millennium Challenge Corporation’s Financial Statements, Internal
                    Controls, and Compliance for the Period Ending September 30, 2009 and 2008
                    Report No. M-000-10-001-C


Dear Mr. Mans,

Enclosed is the final report on the subject audit. The Office of Inspector General (OIG)
contracted with the independent certified public accounting firm of Cotton & Company LLP to
audit the financial statements of the Millennium Challenge Corporation (MCC) for the period
ending September 30, 2009. The contract required that the audit be performed in accordance
with United States Generally Accepted Government Auditing Standards, Office of Management
and Budget (OMB) Bulletin 07-04 as amended, Audit Requirements for Federal Financial
Statements, and the GAO/PCIE Financial Audit Manual.

In its audit of the MCC’s financial statements for the period ending September 30, 2009 the
auditors found:

     •    that the financial statements were fairly presented in conformity with U.S. Generally
          Accepted Accounting Principles,

     •    five significant deficiencies, one of which is considered a material weakness, in the
          internal controls over financial reporting and its operation, and

     •    no instances of material noncompliance with laws and regulations.

A material weakness is a deficiency, or combination of deficiencies, in internal control, such that
there is a reasonable possibility that a material misstatement of the entity's financial statements
will not be prevented, or detected and corrected on a timely basis.

Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. Cotton & Company LLP reported the following internal control significant
deficiencies:

   1. Control over Mission Activities and Support (material weakness)

   2. Quality Control over Financial Reporting

   3. Controls over Payroll Processes

   4. Proper Reporting Period

   5. Fund Balance with Treasury Reconciliation


In carrying out its oversight responsibilities, the OIG reviewed Cotton & Company, LLP’s report
and related audit documentation. This review, as differentiated from an audit in accordance with
U.S. Generally Accepted Government Auditing Standards was not intended to enable the OIG
to express, and we do not express, opinions on MCC’s financial statements, or internal control;
or on MCC’s compliance with applicable laws and regulations. Cotton & Company, LLP is
responsible for the attached auditor’s report, dated November 13, 2009, and the conclusions
expressed in the report. However, our review disclosed no instances that Cotton & Company,
LLP did not comply, in all material respects, with applicable standards.

To address the internal control deficiencies reported by Cotton & Company, LLP we made the
following recommendations to MCC’s management on November 09, 2009:

1. Controls over Mission Activities and Support (material weakness)

       1.1     Untimely Performance and Lack of Monitoring of MCA Audits

Recommendations: We recommend that the MCC Department of Compact Implementation
and Division of Finance:

   •   Strengthen the monitoring of the MCA audit process, from submission of the audit plan
       through issuance of the audit report to ensure timely completion and sufficient time for
       OIG review, prior to issuing the report to MCC for management comment.

   •   Increase communication between the MCAs, the audit firms, and the OIG to ensure all
       parties are adequately informed of the progress of all audits in a timely manner. Ensure
       that the MCAs understand the impact of these audits and how they affect MCC’s
       assessment of overall controls and its financial statement audit.




                                               3
       1.2.   Lack of Adequate Documentation to Support Transactions

Recommendation: We recommend that MCC management, in coordination with the U.S.
Agency for International Development (USAID), establish effective and periodic communication
with MCA and Threshold mission personnel, to emphasize the need for proper documentation to
be maintained in the MCA files, and that these documents are readily available and promptly
submitted for inspection when requested.

       1.3    Improper Reporting of Re-disbursements

Recommendations: We recommend that MCC Department of Compact Implementation and
Division of Finance:

   •   Develop training for MCA Fiscal Agents to ensure proper reporting of re-disbursements
       on the QFRs to ensure the MCA is only requesting advances for immediate funding
       needs.

   •   Develop a tracking mechanism to monitor prepayments and to ensure that MCC and
       NBC personnel are properly reviewing the quarterly submitted QFRs for proper reporting
       of both the projected needs for advancement of funds and actual re-disbursements of
       previously advanced funds.

2. QUALITY CONTROL OVER FINANCIAL REPORTING

Recommendations: We recommend that the MCC Division of Finance:

   •   Strengthen its quality control reviews over financial statements, notes, and other
       information presented, to ensure the information received is accurate, complete, and
       complies with accounting standards and reporting guidance.

   •   Increase communication with USAID to ensure information received has been reviewed
       and is reliable, in order for MCC to prepare complete and accurate financial statements
       in accordance with accounting standards and reporting guidance.

3. CONTROLS OVER PAYROLL PROCESSES

       3.1    Untimely and Incomplete Processing of Separated Employees

Recommendations: We recommend that the MCC Division of HR:

   •   Ensure all HR personnel are aware of the requirement to document and retain the
       employee exit form in the OPF. In addition, direct HR personnel to obtain completed
       employee exit form from the Division of Security in a timely manner and document it
       properly in the employee’s OPF.

   •   Direct HR personnel to follow up on all missing items when performing the OPF audits
       and completing the Purged OPF Check List.




                                           4
   •   Develop and implement a process to monitor and ensure that HR and/or NBC personnel
       are completing leave audits as required and processing payments for amounts due to, or
       amounts owed by, separating employees on a timely basis.

       3.2    Improper and/or Lack of Certification on the SF-52 and SF-50

Recommendations: We recommend that the MCC Division of HR:

   •   Review its current policies and procedures to ensure that proper authorization and
       approval of personnel actions are clearly documented on the required forms prior to
       processing.

   •   Direct HR personnel to adhere to the documented policies and procedures when
       preparing, reviewing, and approving personnel actions, to ensure reviews and approvals
       are properly documented.

   •   Provide the necessary training to responsible HR personnel to ensure that they are
       aware of the need for properly documenting reviews and approvals of personnel
       transactions.

       3.3    Lack of Support for Employee Selected Benefit Deductions

Recommendations: We recommend that the MCC Division of HR:

   •   Establish a consistent tracking mechanism or other historical file for MCC employees to
       document all changes in employee benefits that are not documented using standard
       forms or Employee Express.

   •   Revise current policies and procedures to ensure that supporting documentation for all
       transactions processed by HR personnel on behalf of MCC employees are clearly
       documented either in the OPF or other historical file, and are readily available for
       examination.


4. PROPER REPORTING PERIOD

Recommendations: We recommend that MCC Division of Finance:

   •   Continue to strengthen, and revise as necessary, policies and procedures for yearend
       accruals to ensure that all countries, types of funding, and programs are considered
       when recording estimates for future expenses, and that accruals are reasonably
       sufficient to cover anticipated costs.

   •   Establish and communicate procedures for the MCAs to require the submission of
       estimates or payment requests for current period expenses that have not, or will not be
       recorded until the subsequent year, for each fund type.

   •   Ensure that the accrual amount is adequately and reasonably calculated, clearly
       documented and supported, and properly reviewed for completeness and accuracy prior
       to and subsequently after posting to the GL.


                                           5
5. FUND BALANCE WITH TREASURY (FBWT) RECONCILIATION

Recommendations: We recommend that the MCC Division of Finance:

   •   Inquire of USAID’s procedures to resolve the issue of incomplete SF 224 reporting.

   •   Consider revisions to the Memorandum of Agreement (MOA) with USAID to require
       timely responses upon inquiry by MCC management regarding financial statement audit
       findings related to Threshold Program transactions.


In finalizing the report, we received and considered MCC’s response to the draft audit report
and the recommendations included therein. In its comments, MCC concurred with all of the
recommendations. We acknowledge that management decisions have occurred for the audit
recommendations. Please inform us when final action has been taken.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of
Cotton & Company, LLP during the audit. Please contact me or Richard J. Taylor, Director,
Financial Audits Division, at (202) 216-6963, if you have any questions concerning this report.


                                                    Sincerely,




                                                    Alvin A. Brown /s/
                                                    Assistant Inspector General
                                                    Millennium Challenge Corporation




                                            6
                                TABLE OF CONTENTS



                                                         Page

Independent Auditor’s Report
   Opinion on the Financial Statements                    2

   Internal Control over Financial Reporting              4

   Compliance with Laws and Regulations                  17

   Status of Prior Year Findings – Appendix A            18

   Management Comments and Our Evaluation – Appendix B   20

   Management Comments – Appendix C                      24

Financial Section                                        30

Balance Sheet                                            31

Statement of Budgetary Resources                         32

Statement of Net Cost                                    33

Statements of Operations and Changes in Net Position     34

Notes to Financial Statements                            35

Summary of Financial Statement Audit                     44
  and Management Assurances

Management Challenges                                    45

MCC Response to Management Challenges                    51
Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation


                                  INDEPENDENT AUDITOR’S REPORT


We have audited the Balance Sheets of the Millennium Challenge Corporation (MCC) as of September
30, 2009 and 2008, and the related Statements of Net Cost, Changes in Net Position, and Budgetary
Resources for the years then ended. These financial statements are the responsibility of MCC
management. Our responsibility is to express an opinion on the financial statements based on our audit.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin 07-
04, Audit Requirements for Federal Financial Statements. These standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting amounts and
disclosures in the financial statements. An audit also includes assessing accounting principles used and
significant estimates made by management, as well as evaluating overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of MCC as of September 30, 2009, and 2008, and its net costs, changes in net position,
and budgetary resources for the year then ended in conformity with accounting principles generally
accepted in the United States of America.

Management’s Discussion and Analysis (MD&A) and other accompanying information are not required
as part of MCC’s basic financial statements. For MD&A, which is required by OMB Circular A-136,
Financial Reporting Requirements, and the Federal Accounting Standards Advisory Board’s Statement of
Federal Financial Accounting Standards No. 15, Management’s Discussion and Analysis, we made
certain inquiries of management and compared information for consistency with MCC’s audited financial
statements and against other knowledge we obtained during our audit. For other accompanying
information, we compared information with the financial statements. On the basis of this limited work, we
found no material inconsistencies with the financial statements, U.S. generally accepted accounting


                                                    2
principles, or OMB guidance. We did not audit the MD&A or other accompanying information and
therefore express no opinion on them.

In accordance with Government Auditing Standards, we have also issued separate reports dated
November 13, 2009, on our consideration of MCC’s internal control over financial reporting and on our
tests of its compliance with certain provisions of laws and regulations. The purpose of these reports is to
describe the scope of our testing of internal control over financial reporting and compliance and results of
that testing, and not to provide an opinion on internal control over financial reporting or on compliance.
These reports are an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing results of our audits.


COTTON & COMPANY LLP

Colette Y. Wilson, CPA
Partner




November 13, 2009
Alexandria, Virginia




                                                     3
Inspector General
United States Agency for International Development

Board of Directors
Millennium Challenge Corporation


                      INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


We have audited the Balance Sheet of the Millennium Challenge Corporation (MCC), as of September
30, 2009 and 2008, and the related Statements of Net Cost, Changes in Net Position, and Budgetary
Resources for the years then ended. We have issued our report thereon dated November 13, 2009. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America; standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin 07-
04, Audit Requirements for Federal Financial Statements.

In planning and performing our audits, we considered MCC’s internal control over financial reporting as a
basis for designing audit procedures for the purpose of expressing our opinion on the financial statements,
but not for the purpose of expressing an opinion on the effectiveness of the MCC’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of MCC’s internal
control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements in a timely manner. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably, in accordance with generally accepted accounting principles, such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements, that is more than
inconsequential, will not be prevented or detected by the entity’s internal control.

We noted five matters involving internal control and its operation that we consider to be significant
deficiencies. These matters are listed below and are detailed in the report.

    •   Controls Over Mission Activities and Support
    •   Quality Control Over Financial Reporting
    •   Controls Over Payroll Processes
    •   Proper Reporting Period
    •   Fund Balance with Treasury Reconciliation



                                                      4
A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose described above
and would not necessarily identify all deficiencies in internal control that might be significant deficiencies
or material weaknesses. However, we consider the significant deficiency related to Controls over Mission
Activities and Support to be a material weakness as defined above.

CONTROLS OVER MISSION ACTIVITIES AND SUPPORT

The vast majority of activities and expenses occur in the Compact and Threshold programs. As such,
controls in the mission countries should be adequately designed and operate effectively. In addition, MCC
should be adequately monitoring those controls to gain assurance over the activities taking place and the
resulting financial information being reported. During our audit, we noted areas of weakness related to the
monitoring of audits, completion of those audits, control activities in the countries, and the ability to
provide underlying support for transactions. These areas, which represent a lack of controls over activities
and support, are detailed below.

Untimely Performance and Lack of Monitoring of MCA Audits

Audits of controls, transactions, and balances of Millennium Challenge Accountable Entities (MCA) are
not completed and submitted to the Office of Inspector General (OIG) in a timely manner. In addition,
MCC is not adequately monitoring the start and completion of these audits to ensure a timely submission
of audit reports and notification of findings. This increases MCC’s risk of not being informed of MCA
activities that would affect the financial statements in a timely manner.

As a major component of internal control over the MCAs, MCC requires audits to be conducted on a
semiannual basis for the six months ending December and June of each year. The results of the audits
give MCC some assurance over the validity and accuracy of payments and advances that are processed
for the MCAs and reported in its financial statements. This assurance is needed as invoices and other
underlying supporting documentation for transactions are not reviewed or maintained by MCC or the
National Business Center (NBC). Instead, MCC relies on approved request documents submitted by
MCA personnel.

Based on our inquiries and review of the timing of audit planning documents and audit reports submitted
by the MCA auditors, we concluded that MCC is not adequately monitoring the start and completion of
the MCA audits. Details of our review for the 16 countries that had entered into force, as of June 30,
2009, follow.

For audits conducted for the six months ending December 31, 2008, in which audit reports were due by
March 31, 2009, we noted the following:

    •   The OIG issued nine audit reports, of which seven were submitted between 28 and 45 days late.

    •   Four audit reports that have yet to be issued by the OIG, were also submitted after the due date;
        one in early June 2009, and three in July 2009.
    •
        Audits were not conducted for two MCAs (Morocco and Mozambique) that entered into force in
        September 2008; the first audits were extended into the next audit period.


                                                      5
    •   One audit (MCA Honduras) has not started due to failed procurements.

For audits conducted for the six months ending June 30, 2009, in which audit reports were due by
September 30, 2009, we noted the following:

    •   Audit planning documents for eight audits were submitted and approved after June 30, 2009 (one
        in July, six in August, and one in September), and one has not been received (MCA Honduras is
        still experiencing procurement delays). Planning documents are required to be approved by the
        OIG prior to commencement and audit work should begin within the audit period to ensure
        effective testing of controls.

    •   Thirteen audit reports are currently past due; only one was submitted to the OIG by the due date
        and two were submitted in October. Outstanding audit reports include MCAs Morocco and
        Mozambique, which have now been in operation for one year since entering into force.

Outstanding audit reports for the period ending June 30, 2009, which cover two quarters of fiscal year
(FY) 2009 activity, will now be received well after the current fiscal period, and would not be useful in
MCC’s assessment or assurance of FY 2009 activities. Some audits were delayed due to procurement
issues, extended audit periods for MCAs that entered into force during an audit period, and the OIG’s
delayed issuance of final reports. However, audit reports that are not issued in a timely manner increase
the risk that MCC will not be notified of potential inadequate controls and inaccurate financial
information, which could have a material impact on MCC’s financial statements. In addition, we noted
that OIG comments on the audit reports relate to questionable amounts presented, clarification of audit
findings, and lack of adherence to audit requirements and formatting of reports. Resolution of these
comments is dependent on sufficient and timely responses from the MCA auditors.

Also during testing of internal controls we noted instances of Quarterly Financial Reports (QRF) being
submitted after required deadlines and Payment Request Forms (PRF) that were not properly approved
prior to requesting disbursement from MCC.

OIG’s Guidelines or Financial Audits Contracted by the Millennium Challenge Corporation’s
Accountable Entities (Guidelines; revised August 2007), states:

    MCC standard audit provisions require that the Accountable Entity (hereafter referred to as
    MCA) ensures that an audit is contracted by MCA for itself at least annually in accordance with
    these Guidelines. The MCC may require more frequent audits than annually (§1.5).

    MCC responsibilities are to: 1) monitor and ensure that the required contracted audits of the
    MCA and all non-US governmental and nongovernmental covered providers expending more
    than $300 thousand in their fiscal year are performed in a timely manner; 2) ensure the audits
    are performed by auditors on the list of approved auditors; and 3) make sure proper action is
    taken to correct deficiencies identified by the auditors. … The MCC is also responsible for
    ensuring that audit contract agreements between MCA and Covered Providers, subject to audit,
    and their independent auditors contain a standard statement of work that includes all the
    requirements of these Guidelines (§1.8).

    All required audits must be completed and the reports issued in accordance with the compact (no
    later than 90 days after the end of the audit period) or such other periods as Parties may agree in
    writing. Extensions must be requested by the MCA and the Covered Provider in advance of the


                                                     6
    audit due date. The approval of the extension will be coordinated and approved by the Office of
    the Inspector General on a case by case basis (§1.15).

    The OIG must receive the audit report in accordance with the Compact, no later than 90 days
    after the first anniversary of the Entry into Force and no later than 90 days after the end of the
    audited period thereafter, or such other periods as the Parties may otherwise agree (§2.3).

Not closely monitoring the MCA audit process increases MCC’s risk that MCAs are incurring costs and
requesting advances that are potentially unallowable, incorrect, or not supported by underlying
documentation. In addition, there is a risk that the MCAs do not have appropriate internal control
structures in place that MCC can rely upon for approval of advance and payment requests.

Recommendations: We recommend that the MCC Department of Compact Implementation and
Division of Finance:

    •   Strengthen the monitoring of the MCA audit process, from submission of the audit plan through
        issuance of the audit report to ensure timely completion and sufficient time for OIG review, prior
        to issuing the report to MCC for management comment.

    •   Increase communication between the MCAs, the audit firms, and the OIG to ensure all parties are
        adequately informed of the progress of all audits in a timely manner. Ensure that the MCAs
        understand the impact of these audits and how they affect MCC’s assessment of overall controls
        and its financial statement audit.

Lack of Adequate Documentation to Support Transactions

MCA and Threshold missions did not provide or respond to our requests for supporting documentation in
a timely manner for all expense and undelivered order sample items. Prior to yearend testing, we
informed MCC that documentation would be requested from the MCA and Threshold missions for
substantiation of yearend balances and that due to tight deadlines for the audit, responses would be
required within five days. This detailed, written information was communicated to all MCA and
Threshold mission points of contact.

Upon submission of the sample items, some countries responded in a timely manner, while others
provided either incorrect, insufficient, or no documentation at all. MCC was advised of the lack of
responses and in turn sent several emails to the countries and agency points of contact, in efforts to obtain
the supporting documentation. Significant amounts remained unsupported at the conclusion of audit
fieldwork.

The Government Accountability Office (GAO) Standards of Internal Control, states that:

    Internal control and all transactions and other significant events need to be clearly documented,
    and the documentation should be readily available for examination. … All documentation and
    records should be properly managed and maintained (page 15).

Documentation was not provided or was insufficient to support the following:

    •   Expenses for Compacts and Threshold transactions, in the amounts $995,737 and $2,269,864,
        respectively.



                                                      7
    •   Undelivered Orders for Compact and Threshold balances, in the amounts of $620,217 and
        $5,665,222, respectively.

Lack of response and submission of underlying documentation by the MCA and Threshold missions
weakens the oversight and monitoring of mission activities and increases the risk of MCC reporting
inaccurate balances in its trial balance and financial reports.

Recommendation: We recommend that MCC management, in coordination with the U.S. Agency for
International Development (USAID), establish effective and periodic communication with MCA and
Threshold mission personnel, to emphasize the need for proper documentation to be maintained in the
MCA files, and that these documents be readily available and promptly submitted for inspection when
requested.

Improper Reporting of Re-disbursements

During a review of outstanding advances, we noted that re-disbursements for a compact and 609(g)
funding were not applied to earlier, outstanding advances, and/or were not properly reported by the MCA.
Details of our review at interim are as follows:

Vanuatu partially liquidated an April 2008 advance in April 2009, and had additional outstanding
advances from FY 2008 that also had not been liquidated (one from June 2008, two from August 2008,
and one from September 2008). These advances were not reported as disbursements on the MCA’s
Quarterly Financial Report (QFR) until April 2009; thus, the additional advances received after April
2008 may not have been needed.

Ghana’s 609(g) disbursements for advances received in FYs 2008 and 2009 were not reported in a timely
manner; they were reported on its June 2009 QFR. Funds were continually advanced on subsequent
disbursement packages without discussion with the MCA as to why the amounts were not included on
subsequent QFRs for proper re-disbursement recording in the general ledger (GL).

Volume 1, Part 6, Other Fiscal Matters, of the Treasury Financial Manual (TFM), states:

    Advances to a recipient organization will be limited to the minimum amounts necessary for
    immediate disbursement needs and will be timed to be in accord only with the actual immediate
    cash requirements of the recipient organization in carrying out the purpose of an approved
    program or project. The timing and amount of cash advances will be as close as is
    administratively feasible to the actual disbursements by the recipient organization for direct
    program costs and the proportionate share of any allowable indirect costs. (§2025)

Monitoring and review procedures were not sufficient by MCC and NBC to ensure that aged advances
were completely liquidated prior to issuing further advances and liquidating subsequent advances. In
addition, MCAs that do not properly or timely report their actual re-disbursement amounts cause MCC’s
Congressional reporting to be inaccurate.

Recommendations: We recommend that MCC Department of Compact Implementation and Division of
Finance:

    •   Develop training for MCA Fiscal Agents to ensure proper reporting of re-disbursements on the
        QFRs to ensure the MCA is only requesting advances for immediate funding needs.



                                                   8
    •   Develop a tracking mechanism to monitor prepayments and to ensure that MCC and NBC
        personnel are properly reviewing the quarterly submitted QFRs for proper reporting of both the
        projected needs for advancement of funds and actual re-disbursements of previously advanced
        funds.

QUALITY CONTROL OVER FINANCIAL REPORTING

MCC addressed the prior year recommendation to effectively coordinate with service providers to ensure
timely receipt of yearend trial balance and adjustment information. However, quality control procedures
performed on consolidated financial information presented in the Agency Financial Report (AFR) require
additional improvement.

Yearend quality control reviews were not performed sufficiently to detect material misstatements and
identify questionable and significant variances. Specifically, we noted the following:

    •   A $7.9 million overstatement in Upward Adjustments of Prior Year Undelivered Orders was
        reported in the initial yearend financial statements. The overstatement, which was not detected by
        MCC or USAID, was discovered upon our inquiry of the nearly $8 million increase in GL
        account 4881 for the Threshold program when the prior yearend balance was only $396,264. In
        response to our inquiry, USAID personnel noticed a posting error for both the third and fourth
        quarter amounts. Per their explanation, the deobligation and reobligation adjustments were based
        on cumulative amounts reported for the entire year, instead of amounts for just the related quarter.
        In addition, these amounts included adjustments for subobligations, which should not have been
        included, as these amounts are already recorded at the initial bilateral obligation level.

    •   USAID personnel also noted that similar errors were made to GL account 4871 for downward
        adjustments, resulting in a $432 thousand misstatement. These errors were corrected and
        adjustments were posted to the final trial balance for inclusion in the financial statements.

Additionally, detailed quality control reviews of consolidated financial information were not sufficient to
ensure mathematical accuracy and presentation of comparable data between the trial balance, statements,
and notes. During our review of the statements, notes, and information in the Management’s Discussion
and Analysis (MD&A) section, we noted the following:

    •   The presentation in the notes for Intra-governmental and Public costs, as well as Undelivered
        Orders, did not tie to amounts by program, as recorded in the trial balance. In addition, the total
        amount of costs did not tie to the Statement of Net Cost as it did for the prior year.

    •   The presentation of funding, by program, in the initial MD&A did not tie to amounts recorded in
        the trial balance.

    •   Current and prior year amounts were not consistent in terms of classification in line items and
        presentation of amounts as positive or negative.

    •   Mathematical errors, including some due to rounding, were noted not only in the initial AFR, but
        also in the revised version presented for audit.

    •   Performance information presented in initial and revised versions of the AFR was not clearly
        defined and amounts cited for targets were incorrect.



                                                     9
GAO Standards of Internal Control, states:

    Control activities occur at all levels and functions of the entity. They include a wide range of
    diverse activities such as approvals, authorizations, verifications, reconciliations, performance
    reviews, maintenance of security, and the creation and maintenance of related records which
    provide evidence of execution of these activities as well as appropriate documentation (page 11).

OMB Circular A-136, Form and Content of Performance and Accountability Report (PAR), states:

    Reporting entities should ensure that information in the financial statements is presented in
    accordance with GAAP for Federal entities and the requirements of this Circular….

    Preparation of the annual financial statement is the responsibility of agency management….

Financial statements presented for audit are the responsibility of MCC. Without conducting or ensuring
effective, detailed analyses and quality control reviews over consolidated financial information, MCC is
at risk for presenting statements that are not comparative, accurate, or in compliance with applicable
requirements and accounting standards.

Recommendations: We recommend that the MCC Division of Finance:

    •   Strengthen its quality control reviews over financial statements, notes, and other information
        presented, to ensure that information presented for audit is accurate, complete, and complies with
        accounting standards and reporting guidance.

    •   Increase communication with USAID to ensure information received has been reviewed and is
        reliable, in order for MCC to prepare complete and accurate financial statements in accordance
        with accounting standards and reporting guidance.

CONTROLS OVER PAYROLL PROCESSES

Untimely and Incomplete Processing of Separated Employees

Human Resource (HR) personnel are not proactive in obtaining the completed employee exit forms from
the Division of Security, nor are they including copies of employee exit forms in the Official Personnel
File (OPF). During our testing of 10 separated employees, we noted that employee exit forms were not
properly documented in the OPF for all 10 employees sampled. MCC conducted OPF audits in which all
sampled employees were included. When completing the Purged OPF Check List, it was simply
documented that the employee exit form was not included in the OPF prior to being sent to storage or to
the transferring employee’s new agency.

In addition, we noted that for one separated employee, the lump sum payment for annual leave was not
received until the 5th pay period after separation from MCC. MCC provided no explanation for the delay
in performing the leave audit and processing the lump sum payment; normal processing time is two pay
periods.

MCC’s Policy and Procedures on Employee Exit Procedures, Section 5.2, states the following:

    After the entire exit form is complete with signatures, the employee will meet with HR for an exit
    interview and final checkout…. The HR representative will witness the employee’s final signature


                                                    10
    on the MCC Exit Form, noting the return of all MCC property. The HR representative will retain
    a copy of the exit form, place it in the employee’s historical personnel file, and provide the
    employee a copy…. After the employee has turned in their MCC badge to the Associate Director
    for Security, the form will be submitted to the HR division for their personnel file.

The Purged OPF Check List lists the documents to be included in the OPF:

    Copy of Employee Exit Form – filed on left side.

GAO Standards of Internal Control, states:

    Transactions should be promptly recorded to maintain their relevance and value to management
    in controlling operations and making decisions. This applies to the entire process or life cycle of
    a transaction or event from the initiation and authorization through its final classification in
    summary records. In addition, control activities help to ensure that all transactions are
    completely and accurately recorded (page 15).

By not adhering to the process of completing and retaining the employee exit form, the risk increases that
MCC employees may not return all required property before separating from the agency. In addition, the
untimely processing and payment of amounts owed to its employees increases the agency’s risk of
retaining excessive liabilities or long-term receivables on its books for excessive periods of time.

Recommendations: We recommend that the MCC Division of HR:

    •   Ensure all HR personnel are aware of the requirement to document and retain the employee exit
        form in the OPF. In addition, direct HR personnel to obtain completed employee exit form from
        the Division of Security in a timely manner and document it properly in the employee’s OPF.

    •   Direct HR personnel to follow up on all missing items when performing the OPF audits and
        completing the Purged OPF Check List.

    •   Develop and implement a process to monitor and ensure that HR and/or NBC personnel are
        completing leave audits as required and processing payments for amounts due to, or amounts
        owed by, separating employees on a timely basis.

Improper and/or Lack of Certification on the SF-52 and SF-50

During our testing of controls over personnel actions, we noted that HR personnel are not properly
preparing and certifying the Standard Form (SF) 52, Request for Personnel Action, and the SF 50,
Notification of Personnel Action. HR specialists are not certifying SF-52s in Part C-2 to show evidence of
approval of the personnel action processed. In addition, they are not properly reviewing the SF-52s to
ensure all necessary signatures are obtained to ensure the actions were properly requested and authorized
prior to processing the action, nor are they signing the SF-52 as the preparing individual.

During testing of controls over 10 newly hired employees, we noted the following:

    •   Three SF-52s that were not signed or dated for approval

    •   One instance in which the SF-52 and SF-50 were prepared and certified by the same HR
        specialist


                                                    11
    •   Five SF-50s that were approved after the effective date of the personnel action

In addition, during testing controls over the processing of SF-52s for 45 employees, we noted:

    •   Twelve SF-52s did not have the signature of a Certification Officer in Part C-2

    •   Two instances in which the SF-52 and SF-50 were prepared and certified by the same HR
        specialist

    •   One SF-52 was not signed by the requesting and authorizing officials

    •   One SF-50 had an approval date that occurred before the requesting and authorizing dates

MCC’s documented procedures for processing SF-52s state that the HR specialist should not sign
the SF-50, and that SF-52s and SF-50s should not be released until all actions have been
reviewed and approved.

U.S. Office of Personnel Management (OPM), Guide to Processing Personnel Actions, states:

    No personnel action can be made effective prior to the date on which the appointing officer
    approved the action. That approval is documented by the appointing officer’s pen and ink
    signature or by an authentication, approved by the Office of Personnel Management, in block 50
    of the Standard Form 50, or in Part C-2 of the Standard Form 52. By approving an action, the
    appointing officer certifies that the action meets all legal and regulatory requirements and, in the
    case of appointments and position change actions, that the position to which the employee is
    being assigned has been established and properly classified (§4b, Effective Dates).

    As explained in paragraph 4b, most personnel actions must be approved by the appointing officer
    on or before their effective dates. An appointing officer is an individual in whom the power of
    appointment is vested by law or to whom it has been legally delegated. Only an appointing
    officer may sign and date the certification in Part C-2 of the Standard Form 52 or blocks 50 and
    49 of the Standard Form 50 to approve an action (§4c, Approval of Personnel Actions)

GAO Standards of Internal Control, states that:

    Key duties and responsibilities need to be divided or segregated among different people to reduce
    the risk of error or fraud. This should include separating the responsibilities for authorizing
    transactions, processing and recording them, reviewing the transactions, and handling any
    related assets (page 14).

Not adhering to procedures for preparing and approving personnel actions and establishing proper
segregation of duties increases the risk that personnel actions may be processed that are not properly
authorized or approved.

Recommendations: We recommend that the MCC Division of HR:

    •   Review its current policies and procedures to ensure that proper authorization and approval of
        personnel actions are clearly documented on the required forms prior to processing.



                                                    12
    •   Direct HR personnel to adhere to the documented policies and procedures when preparing,
        reviewing, and approving personnel actions, to ensure reviews and approvals are properly
        documented.

    •   Provide the necessary training to responsible HR personnel to ensure that they are aware of the
        need for properly documenting reviews and approvals of personnel transactions.

Lack of Support for Employee Selected Benefit Deductions

During testing of payroll and personnel transactions for 45 employees over two pay periods, we noted 14
instances in which documentation was not readily available or was not provided to support the amount
deducted for Thrift Savings Plan (TSP) benefits. Of these 14 instances, we noted nine instances in which
the deduction taken did not agree with the amount authorized by the employee.

GAO Standards of Internal Control, states:

    Internal control and all transactions and other significant events need to be clearly documented,
    and the documentation should be readily available for examination. … All documentation and
    records should be properly managed and maintained (page 15).

OPM’s The Guide to Personnel Recordkeeping, states in Chapter 3, Filing Documents in the Personnel
Folder, states:

    Records are filed in the Official Personnel Folder to document events in an individual’s Federal
    employment history that have long-term consequences for the employee and for the Government.
    Care should be exercised in filing documents correctly to ensure all documents pertaining to an
    employee’s rights and benefits are available in the personnel folder when needed.

Instead of using the proper TSP form or accessing Employee Express, employees are emailing the HR
specialist with the authorized amount to process for their TSP deduction. HR does not maintain in the
OPF or in a centralized location, authorizations that are not documented using the standard form. For
differences noted during the audit, the HR specialist could not readily produce the emails and had to
search archived emails for the employee’s authorization for the change in deduction amount.

Not using proper forms or maintaining a record of changes made to employee deductions increases the
risk that incorrect deductions may be made for enrolled benefits.

Recommendations: We recommend that the MCC Division of HR:

    •   Establish a consistent tracking mechanism or other historical file for MCC employees to
        document all changes in employee benefits that are not documented using standard forms or
        Employee Express.

    •   Revise current policies and procedures to ensure that supporting documentation for all
        transactions processed by HR personnel on behalf of MCC employees are clearly documented
        either in the OPF or other historical file, and are readily available for examination.




                                                   13
PROPER REPORTING PERIOD

Expenses for goods and services received and performed were not recorded in the proper period. We
noted FY 2008 transactions recorded in the current fiscal year for which accruals had not been posted. In
addition, we noted FY 2009 accrual transactions recorded in the beginning of FY 2010 that were not
estimated and recorded.

This is a repeat finding from the FY 2008 audit where MCC’s accrual processes were not sufficient to
identify and compute amounts owed, but not paid, in the appropriate period. MCC did make
improvements to their yearend accrual processes by contacting NBC for a listing of FY 2009 invoices and
payment requests received but not paid in the first nine days of FY 2010, and ensuring comprehensive
coverage of all funds, interagency agreements, and vendor contracts. However, significant amounts still
lacked appropriate accruals and were recorded in the wrong period. It was also noted that expenses were
reported in the wrong period for Threshold program costs.

Statements of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the
Federal Government, (pp. 22 and 23) requires “a liability is recognized when one party receives goods or
services in return for a promise to provide money or other resources in the future… The expense is
recognized in the period that the exchange occurs.”

OMB Circular A-136, Form and Content of the Performance and Accountability Report (PAR), Balance
Sheet, Section II.4.3.4 Liabilities, states that “liabilities shall be recognized when they are incurred
regardless of whether they are covered by available budgetary resources.”

Unrecorded accruals for FY 2008 expenses reported in FY 2009 resulted in overstated expenses as
follows:

    •   Compact and Compact Implementation funds in the amount of $1,902,313

    •   Administrative and Due Diligence funds in the amount of $2,249,188

    •   Threshold Program funds in the amount of $702,950

Unrecorded accruals for FY 2009 expenses reported in FY 2010 resulted in understated expenses as
follows:

    •   Compact funds in the amount of $2,632,499

    •   Threshold Program funds in the amount of $22,568

By not accruing for expenses in the proper period, FY 2009 expenses were overstated by $2,199,384.

USAID also recorded an adjustment to the Threshold program accrual amounts, as a result of significant
deficiencies noted in the accrual reporting system, which were calculated and posted to the GL.

Recommendations: We recommend that MCC Division of Finance:

    •   Continue to strengthen, and revise as necessary, policies and procedures for yearend accruals to
        ensure that all countries, types of funding, and programs are considered when recording estimates
        for future expenses, and that accruals are reasonably sufficient to cover anticipated costs.


                                                   14
    •   Establish and communicate procedures for the MCAs to require the submission of estimates or
        payment requests for current period expenses that have not, or will not be recorded until the
        subsequent year, for each fund type.

    •   Ensure that the accrual amount is adequately and reasonably calculated, clearly documented and
        supported, and properly reviewed for completeness and accuracy prior to and subsequently after
        posting to the GL.

    •   Ensure that USAID has procedures to resolve incorrect accruals and to make certain that quarterly
        and yearend amounts for the Threshold program are complete and accurate.

FUND BALANCE WITH TREASURY (FBWT) RECONCILIATION

USAID administers the Threshold Program for MCC, and Phoenix is the accounting system of record.
During the review of internal controls, we noted that the monthly SF 224s, Statement of Transactions,
which include mission transactions for MCC’s Threshold Program, did not include all monthly cash
disbursements and cash receipts recorded in Phoenix. Instead, only cash disbursements and cash receipts
that are in agreement with those recorded and confirmed in Treasury’s system are reported to avoid
having differences reported back by Treasury on the SF-6652, Statement of Differences (SOD). In
addition, quarterly cash adjustments are posted to the GL in order to agree the FBWT account balance to
the cash balance reported by Treasury. At yearend, it was noted that the missions followed the same
procedures in preparing the September SF 224s.

The Treasury Financial Manual (TFM), Preparing FMS 224, §3330 states:

    Agencies prepare the monthly FMS 224 based on:
       •   Vouchers paid or accomplished by [Regional Finance Centers (RFC)];
       •   Intra-governmental Payments and Collections (IPAC) transactions accomplished;
       •   Cash collections received for deposit on SF 215s [Deposit Ticket]; and
       •   Electronic payments/deposits such as those processed through the Automated Standard
           Application for Payments (ASAP) System or the Fedwire Deposit System.

    Agencies also should report transactions recorded in their [GL] that are not associated with an
    SF 215, SF 5515 [Debit Voucher], IPAC, or vouchers paid or accomplished by RFCs in Section I
    of the FMS 224 only.

§V, Subsection C, Adjustments, of Part 2-5100 states:

    An agency may not arbitrarily adjust its FBWT account. Only after clearly establishing the
    causes of errors and properly documenting those errors, should an agency adjust its FBWT
    account balance.

Improper reporting of FBWT to Treasury via the SF-224s bypasses the mandatory reconciliation and
review process by Treasury, which in turn increases the risk of errors and misstatements ultimately being
reported in the financial statements.

Recommendations: We recommend that the MCC Division of Finance:

    •   Inquire of USAID’s procedures to resolve the issue of incomplete SF 224 reporting.


                                                   15
    •   Consider revisions to the Memorandum of Agreement (MOA) with USAID to require timely
        responses upon inquiry by MCC management regarding financial statement audit findings related
        to Threshold Program transactions.


We noted certain matters involving internal control and its operation that we will report to MCC
management in a separate letter.

This report is intended solely for the information and use of USAID, MCC management, others within
MCC, OMB, and Congress. It is not intended to be and should not be used by anyone other than these
specified parties.

COTTON & COMPANY LLP

Colette Y. Wilson, CPA
Partner




November 13, 2009
Alexandria, Virginia




                                                   16
Inspector General
United States Agency for International Development
Board of Directors
Millennium Challenge Corporation


                              INDEPENDENT AUDITOR’S REPORT ON
                            COMPLIANCE WITH LAWS AND REGULATIONS


We have audited the Balance Sheets of the Millennium Challenge Corporation (MCC) as of September
30, 2009 and 2008, and the related Statements of Net Cost, Changes in Net Position, and Budgetary
Resources for the year then ended. We have issued our report thereon dated November 13, 2009. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin 07-
04, Audit Requirements for Federal Financial Statements.

MCC management is responsible for complying with laws and regulations applicable to the agency. As
part of obtaining reasonable assurance about whether MCC’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts, and certain other laws and regulations specified in OMB Bulletin 07-04. Providing an
opinion on compliance with those provisions was not, however, an objective of our audits, and
accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of noncompliance that we are required to
report under Government Auditing Standards and OMB Bulletin 07-04.

This report is intended solely for the information and use of United States Agency for International
Development (USAID), MCC management, others within MCC and USAID, OMB, and Congress. It is
not intended to be and should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP

Colette Y. Wilson, CPA
Partner



November 13, 2009
Alexandria, Virginia

                                                   17
                                                                                    Appendix A


             Following is the disposition of prior year (2008) findings, recommendations, and
Status of    MCC Management’s action.
Prior Year
Findings     Finding:

                  1. Absence of quality controls over financial reporting (material
                  weakness)
             .

             Recommendation No. 1: We recommend that the Millennium Challenge
             Corporation management:

             1.1.  Perform detailed quality control reviews to ensure compliance with
             accounting standards and reporting guidance.

             1.2.    Review and revise written policies and procedures regarding the
             preparation of the financial statements and related footnote disclosures to ensure
             that all financial statement line items are reported accurately and properly
             supported, and that any adjustments are reviewed and approved before
             recording in the GL by NBC. Document the above processes to ensure that an
             audit trail is available for all line items and amounts reported.

             1.3.    Effectively coordinate with its service providers (USAID and NBC) to
             ensure timely and accurate receipt of final trial balance information
             sufficient to prepare complete financial statements in accordance with OMB
             Circular A-136.

             Status:

             While improvements were made in the coordination with its service providers
             MCC still needs to strengthen its detailed quality control reviews and ensure that
             documented policies are finalized and adhered to.

             We consider this FY 2008 condition to be unresolved as of September 30, 2009.

             Finding:

                    2. Authorization for personnel actions inconsistent with stated
             policies and procedures.

             Recommendation No. 2: We recommend that the Millennium Challenge
             Corporation’s management review and revise its process for requesting,
             authorizing, and certifying its personnel actions to ensure all actions are properly
             authorized, documented, and retained prior to the action being processed into
             the personnel database.




                                              18
                                                        Appendix A

 Status:

 We consider this FY 2008 condition to be unresolved as of September 30, 2009,
 as similar findings are still noted by the auditors.

 Finding

           3. Transactions not recorded in the period they occurred

 Recommendation No. 3: We recommend that the Millennium Challenge
 Corporation management develop and adhere to all policies and procedures
 related to quarterly and yearend reporting to ensure that all appropriate
 transactions are reviewed and a determination is made as to the amounts to
 accrue for the current period; and the accrual amount is properly prepared,
 clearly documented, and supported and that it is reviewed by both the service
 provider, NBC, and MCC for completeness and accuracy prior to and
 subsequently after posting to the GL.

 Status:

 While improvements were made to the methodology used to accrue for yearend
 expenses, significant amounts remained in the current year which related to the
 prior year.

 We consider this FY 2008 condition to be unresolved as of September 30, 2009.

 Finding

           4. Lack of adequate review for accuracy and duplication prior to
              processing and recording transactions in General Ledger.

 Recommendation No. 4: We recommend that the Millennium Challenge
 Corporation management:

 4.1. Ensure that procedures for reviewing accruals and adjustments recorded by
 NBC are effectively performed to ensure each is valid and has been properly
 recorded.

 4.2.   Require documentation to support the entry of a JV to avoid duplication of
 the transactions. In addition, use of a consistent naming convention when
 entering JVs should be required to avoid duplication.

 4.3.   Ensure that PP&E reconciliations are effectively performed each quarter
 and that amortization schedules are accurate and complete.

Status:

We consider these FY 2008 conditions to be unresolved as of September 30, 2009


                                 19
                                                                                       Appendix B


                   We received and evaluated MCC’s management comments to the
Management         recommendations made in this report. Management comments have been
Comments and Our   included in its entirety in Appendix C.
Evaluation
                   Based on MCC’s comments, we acknowledge that management decisions have
                   been reached on all of the recommendations. MCC should report to the OIG
                   when final action has been taken on the recommendations. The following is a
                   brief summary of MCC’s management comments on the five recommendations
                   included in this report and our evaluation of those comments.


                   Recommendation No. 1.1

                   MCC agrees with the recommendations. The MCC’s Fiscal Accountability (FA)
                   Directors will work with audit firms, MCAs and the OIG to ensure the timely
                   completion and issuance of audit reports in the future. MCC has established a
                   comprehensive audit tracking table to monitor the status of all MCA audits going
                   forward, following up with MCAs to ensure timely completion, and providing
                   notifications to the OIG on any issues or delays. MCC will stress to the MCAs the
                   importance of timely audits as a part of MCC’s overall system of strong internal
                   controls.

                   Auditor Evaluation:

                   We conclude that management has adequately addressed this issue, and
                   acknowledge that a management decision has been taken.


                   Recommendation No. 1.2

                   MCC agrees with the recommendation. MCC’s Fiscal Accountability (FA)
                   Directors will work with the MCAs to ensure that documentation to support
                   transactions is in good order and readily available. With regard to the
                   Threshold missions, MCC plans to meet with USAID management to
                   discuss the lack of response from the missions, and determine what steps
                   both MCC and USAID can take to avoid this issue for future audits.

                   Auditor Evaluation:

                   We conclude that management has adequately addressed this issue, and
                   acknowledge that a management decision has been taken.




                                                   20
                                                                          Appendix B


Recommendation No. 1.3

MCC agrees with the recommendations. MCC has developed a report to monitor
prepayments and will work with the National Business Center (NBC) to ensure that
the first in/first-out method is followed when liquidating MCA advances. In addition,
the FA Directors will provide training as needed to ensure that the MCAs provide
accurate reporting of re-disbursements in their quarterly reporting submissions to
MCC. MCC wishes to note that with the implementation of the Common Payment
System (CPS), the use of advances is now limited to payment of MCA salaries and
small dollar items. CPS makes payments directly to vendors via the US Treasury,
eliminating the need for large dollar advances to MCA bank accounts.

Auditor Evaluation:

We conclude that management has adequately addressed this issue, and
acknowledge that a management decision has been taken.

Recommendation No. 2

MCC agrees with the recommendations. As noted in the audit report, MCC has made
improvements in its quality control over financial report in FY 2009 (this item was a
material weakness in FY 2008). In FY 2010, MCC will expand its review process to
include quarterly fluctuation analysis of all materials accounts, review its reporting
process to ensure that there is adequate time for an effective review process, and
continue to coordinate with USAID on the timeliness and accuracy of financial data
for the Threshold program.

Auditor Evaluation:

We conclude that management has adequately addressed this issue, and
acknowledge that a management decision has been taken.

Recommendation No. 3.1

MCC agrees with the finding and recommendations. MCC’s Human Resources
division will establish procedures and controls to ensure that employee exit forms
leave audits, and other requirements are met and filed in the OPF. MCC’s HR
division is undergoing a project to document all policies and procedures (develop or
update as necessary) to ensure we are compliant with all federal requirements.
These policies will include procedures and metrics where necessary to ensure we
are complying with the policies. This project is scheduled to be complete by the end
of November 2009.




                                    21
                                                                          Appendix B


Auditor Evaluation:

We conclude that management has adequately addressed this issue, and
acknowledge that a management decision has been taken.

Recommendation No. 3.2

MCC agrees with recommendations. MCC’s Human Resources division will
establish procedures and controls to ensure proper personnel actions (SF-52/SF-50)
documentation. MCC’s HR division is undergoing a project to document all policies
and procedures (develop or update as necessary) to ensure we are compliant with
all federal requirements. These policies will include procedures and metrics where
necessary to ensure we are complying with the policies. This project is scheduled to
be complete by the end of November 2009

Auditor Evaluation:

We conclude that management has adequately addressed this issue, and
acknowledge that a management decision has been taken.

Recommendation No. 3.3

MCC agrees with the findings and recommendations. MCC’s Human Resources
Division will establish procedures and controls to ensure proper documentation of
employee change requests. MCC will also discontinue the practice of accepting TSP
changes via email. Employees will be required to use the appropriate form or
Employee Express for changes to their TSP accounts. MCC’s HR division is
undergoing a project to document all policies and procedures (develop or update as
necessary) to ensure we are compliant with all federal requirements. These policies
will include procedures and metrics where necessary to ensure we are complying
with the policies. Project is scheduled to be complete by the end of November 2009.

Auditor Evaluation:

We conclude that management has adequately addressed this issue, and
acknowledge that a management decision has been taken.

Recommendation No. 4

MCC agrees with the recommendations. MCC has implemented new formulation
methodologies for its quarterly and year-end accruals that will ensure administrative;
due diligence and program funds are accurately recorded. These new
methodologies




                                    22
                                                                         Appendix B


will be reflected in the update of MCC’s financial management policy and procedures
which will be released during the first quarter of FY 2010. MCC will meet with USAID
management to discuss their procedures for ensuring that accruals reported as part
of the quarterly reporting package to MCC are accurate and complete.

Auditor Evaluation:

We conclude that management has adequately addressed this issue, and
acknowledge that a management decision has been taken.


Recommendation No. 5

MCC agrees with the recommendations. MCC plans to meet with USAID
management to discuss their plan of action to resolve this finding. MCC will update
the MOU with USAID to require a copy of USAIDs consolidated monthly
reconciliation for the fund balance with Treasury as part of their oversight Threshold
reporting. MCC‘s ability to implement the recommendation with regard to USAID will
be dependent on their agreement to the terms of the MO, and their timely completion
of FBWT reconciliations in accordance with established Treasury guidelines.

Auditor Evaluation:

We conclude that management has adequately addressed this issue, and
acknowledge that a management decision has been taken.




                                    23
                                                                                     Appendix C




TO:            Alvin A. Brown
               Assistant Inspector General

FROM:            Michael Casella /s/
               Acting Vice President, Administration and Finance

DATE:          November 10, 2009

SUBJECT:       Management Response to Draft Independent Auditor’s
               Report on MCC’s Financial Statements for Fiscal Years
               Ended September 30, 2009 and 2008, Respectively

We have received the subject draft report and are pleased to note that the independent auditors,
Cotton & Company, LLP, are issuing an unqualified opinion on our principal financial
statements:

        Balance Sheet;
        Statement of Net Cost;
        Statement of Changes in Net Position; and
        Statement of Budgetary Resources

The Millennium Challenge Corporation’s (MCC) management recognizes the importance of
accountability, effective stewardship and public disclosures related to the resources entrusted to
it. Our goal is to achieve and maintain excellence in our financial management, financial
reporting and internal control systems. Accordingly, we will implement the recommendations as
soon as possible to strengthen our systems of internal control and lend further credibility to our
financial statements and overall financial operations.

We wish to recognize and thank you, your team, and Cotton & Company for working closely
with us during the audit process. Any questions may be addressed to Mr. Dennis Nolan, Deputy
Chief Financial Officer, or to me.

Following are our management decisions and responses to Cotton & Company’s audit
recommendations.

                                                24
                                                                                         Appendix C


   Material Weakness: Controls over Mission Activities and Support

   Recommendation No. 1: Untimely Performance and Lack of Monitoring of MCA
   Audits

We recommend that the MCC Department of Compact Implementation and Division of Finance:

• Strengthen the monitoring of the MCA audit process, from submission of the audit plan through
issuance of the audit report to ensure timely completion and sufficient time for OIG review, prior to
issuing the report to MCC for management comment.

• Increase communication between the MCAs, the audit firms, and the OIG to ensure all parties
are adequately informed of the progress of all audits in a timely manner. Ensure that the MCAs
understand the impact of these audits and how they affect MCC’s assessment of overall controls and
its financial statement audit.

   Management Response

   MCC agrees with the recommendations. The MCC’s Fiscal Accountability (FA) Directors will
   work with audit firms, MCAs and the OIG to ensure the timely completion and issuance of audit
   reports in the future. MCC has established a comprehensive audit tracking table to monitor the
   status of all MCA audits going forward, following up with MCAs to ensure timely completion,
   and providing notifications to the OIG on any issues or delays. MCC will stress to the MCAs the
   importance of timely audits as a part of MCC’s overall system of strong internal controls.

   Recommendation No 2

   We recommend that MCC management, in coordination with the U.S. Agency for International
   Development (USAID), establish effective and periodic communication with MCA and
   Threshold mission personnel, to emphasize the need for proper documentation to be maintained
   in the MCA files, and that these documents are readily available and promptly submitted for
   inspection when requested.

   Management Response

   MCC agrees with the recommendation. MCC’s Fiscal Accountability (FA) Directors will work
   with the MCAs to ensure that documentation to support transactions is in good order and readily
   available. With regard to the Threshold missions, MCC plans to meet with USAID management
   to discuss the lack of response from the missions, and determine what steps both MCC and
   USAID can take to avoid this issue for future audits.




                                                   25
                                                                                        Appendix C

Recommendation No 3

We recommend that MCC Department of Compact Implementation and Division of Finance:

•      Develop training for MCA Fiscal Agents to ensure proper reporting of re-disbursements
on the QFRs to ensure the MCA is only requesting advances for immediate funding needs.

•       Develop a tracking mechanism to monitor prepayments and to ensure that MCC and
NBC personnel are properly reviewing the quarterly submitted QFRs for proper reporting of both
the projected needs for advancement of funds and actual re-disbursements of previously
advanced funds.

Management Response

MCC agrees with the recommendations. MCC has developed a report to monitor prepayments
and will work with the National Business Center (NBC) to ensure that the first in/first-out
method is followed when liquidating MCA advances. In addition, the FA Directors will provide
training as needed to ensure that the MCAs provide accurate reporting of re-disbursements in
their quarterly reporting submissions to MCC. MCC wishes to note that with the implementation
of the Common Payment System (CPS), the use of advances is now limited to payment of MCA
salaries and small dollar items. CPS makes payments directly to vendors via the US Treasury,
eliminating the need for large dollar advances to MCA bank accounts.

Significant Deficiency 1: Quality Control Over Financial Reporting

We recommend that the MCC Division of Finance:

•      Strengthen its quality control reviews over financial statements, notes, and other
information presented, to ensure the information received is accurate, complete, and complies
with accounting standards and reporting guidance.

•       Increase communication with USAID to ensure information received has been reviewed
and is reliable, in order for MCC to prepare complete and accurate financial statements in
accordance with accounting standards and reporting guidance.

Management Response

MCC agrees with the recommendations. As noted in the audit report, MCC has made
improvements in its quality control over financial report in FY 2009 (this item was a material
weakness in FY 2008). In FY 2010, MCC will expand its review process to include quarterly
fluctuation analysis of all materials accounts, review its reporting process to ensure that there is




                                                 26
                                                                                    Appendix C

adequate time for an effective review process, and continue to coordinate with USAID on the
timeliness and accuracy of financial data for the Threshold program.

Significant Deficiency 2: Controls Over Payroll Process

Recommendation No. 1: Untimely and Incomplete Processing of Separated Employees

We recommend that the MCC Division of HR:

•       Ensure all HR personnel are aware of the requirement to document and retain the
employee exit form in the OPF. In addition, direct HR personnel to obtain completed employee
exit form from the Division of Security in a timely manner and document it properly in the
employee’s OPF.

•     Direct HR personnel to follow up on all missing items when performing the OPF audits
and completing the Purged OPF Check List.

•      Develop and implement a process to monitor and ensure that HR and/or NBC personnel
are completing leave audits as required and processing payments for amounts due to, or amounts
owed by, separating employees on a timely basis.

Management Response

MCC agrees with the finding and recommendations. MCC’s Human Resources division will
establish procedures and controls to ensure that employee exit forms leave audits, and other
requirements are met and filed in the OPF. MCC’s HR division is undergoing a project to
document all policies and procedures (develop or update as necessary) to ensure we are
compliant with all federal requirements. These policies will include procedures and metrics
where necessary to ensure we are complying with the policies. This project is scheduled to be
complete by the end of November 2009.

Recommendation No 2: Improper and/or lack of certification on the SF-52/SF-50

We recommend that the MCC Division of HR:

•     Review its current policies and procedures to ensure that proper authorization and
approval of personnel actions are clearly documented on the required forms prior to processing.

•      Direct HR personnel to adhere to the documented policies and procedures when
preparing, reviewing, and approving personnel actions, to ensure reviews and approvals are
properly documented.




                                               27
                                                                                     Appendix C


•       Provide the necessary training to responsible HR personnel to ensure that they are aware
of the need for properly documenting reviews and approvals of personnel transactions.

Management Response

MCC agrees with recommendations. MCC’s Human Resources division will establish
procedures and controls to ensure proper personnel actions (SF-52/SF-50) documentation.
MCC’s HR division is undergoing a project to document all policies and procedures (develop or
update as necessary) to ensure we are compliant with all federal requirements. These policies
will include procedures and metrics where necessary to ensure we are complying with the
policies. This project is scheduled to be complete by the end of November 2009.

Recommendation No 3: Lack of support for employee selected benefit deductions

We recommend that the MCC Division of HR:

•     Establish a consistent tracking mechanism or other historical file for MCC employees to
document all changes in employee benefits that are not documented using standard forms or
Employee Express.

•       Revise current policies and procedures to ensure that supporting documentation for all
transactions processed by HR personnel on behalf of MCC employees are clearly documented
either in the OPF or other historical file, and are readily available for examination.

Management Response

MCC agrees with the findings and recommendations. MCC’s Human Resources Division will
establish procedures and controls to ensure proper documentation of employee change requests.
MCC will also discontinue the practice of accepting TSP changes via email. Employees will be
required to use the appropriate form or Employee Express for changes to their TSP accounts.
MCC’s HR division is undergoing a project to document all policies and procedures (develop or
update as necessary) to ensure we are compliant with all federal requirements. These policies
will include procedures and metrics where necessary to ensure we are complying with the
policies. Project is scheduled to be complete by the end of November 2009.

Significant Deficiency 3: Proper Reporting Period

We recommend that MCC Division of Finance:

•       Continue to strengthen, and revise as necessary, policies and procedures for yearend
accruals to ensure that all countries, types of funding, and programs are considered when
recording estimates for future expenses, and that accruals are reasonably sufficient to cover
anticipated costs.

                                                28
                                                                                     Appendix C


•       Establish and communicate procedures for the MCAs to require the submission of
estimates or payment requests for current period expenses that have not, or will not be recorded
until the subsequent year, for each fund type.

•      Ensure that the accrual amount is adequately and reasonably calculated, clearly
documented and supported, and properly reviewed for completeness and accuracy prior to and
subsequently after posting to the GL.

•       Ensure that USAID has procedures to resolve incorrect accruals and to make certain that
quarterly and yearend amounts for the Threshold program are complete and accurate

Management Response

MCC agrees with the recommendations. MCC has implemented new formulation methodologies
for its quarterly and year-end accruals that will ensure administrative; due diligence and program
funds are accurately recorded. These new methodologies will be reflected in the update of
MCC’s financial management policy and procedures which will be released during the first
quarter of FY 2010. MCC will meet with USAID management to discuss their procedures for
ensuring that accruals reported as part of the quarterly reporting package to MCC are accurate
and complete.

Significant Deficiency No 4: Fund Balance with Treasury (FBWT) Reconciliation

We recommend that the MCC Division of Finance:

•      Inquire of USAID’s procedures to resolve the issue of incomplete SF 224 reporting.

•       Consider revisions to the Memorandum of Agreement (MOA) with USAID to require
timely responses upon inquiry by MCC management regarding financial statement audit findings
related to Threshold Program transactions.


Management Response

MCC agrees with the recommendations. MCC plans to meet with USAID management to
discuss their plan of action to resolve this finding. MCC will update the MOU with USAID to
require a copy of USAID’s consolidated monthly reconciliation for the fund balance with
Treasury as part of our oversight Threshold reporting. MCC‘s ability to implement the
recommendation with regard to USAID will be dependent on their agreement to the terms of the
MO, and their timely completion of FBWT reconciliations s in accordance with established
Treasury guidelines.



                                               29
FINANCIAL SECTION


In accordance with the OMB Circular A-136, Financial Reporting Requirements, MCC’s
financial statements are in the appropriate form and content for FY 2009. The tables below
outline the following financial statements:

`    Balance Sheets;

`    Statements of Budgetary Resources;

`    Statements of Net Cost;

`    Statements of Changes in Net Position;

`    Notes to Financial Statements; and

`    Independent Auditor Reports of the MCC’s Financial Statements, Internal Controls, and
     Compliance for the period ending September 30, 2009 and 2008.




                                               30
BALANCE SHEETS

                                                                   FY 2009          FY 2008
    Assets
    Intra-Governmental
    Fund Balance with Treasury (Note 2)                         $6,655,511,983     $6,546,857,481
    Advances (Note 5)                                                 6,474,444         9,485,386
    Total Intra-Governmental                                       6,661,986,427    6,556,342,867
    Accounts Receivable, Net (Note 3)                                    90,363           54,672
    General Property, Plant, and Equipment, Net (Note 4)              6,953,153         8,127,205
    Advances (Note 5)                                                32,422,386       33,093,266
    Total Assets                                                $6,701,452,329     $6,597,618,010
    Liabilities
    Intra-Governmental

    Accounts Payable (Note 1F)                                          229,546            4,973
    Contributions and Payroll Taxes Payable                             467,304          376,093
    Total Intra-Governmental                                            696,850          381,066
    Federal Employee and Veteran Benefits Payable                        35,751                0
    Accounts Payable (Note 1F)                                       56,026,101       35,343,643
    Accrued Funded Payroll Liabilities                                7,196,040         6,444,041
    Total Liabilities                                               $63,954,742      $42,168,750
    Net Position
    Unexpended Appropriations – Other Funds                     $6,632,548,466     $6,548,610,190
    Cumulative Results of Operations – Other Funds                    4,949,121         6,839,070
    Total Net Position                                          $6,637,497,587     $6,555,449,260
    Total Liabilities and Net Position                          $6,701,452,329     $6,597,618,010

   The notes are an integral part of these financial statements.




                                                           31
STATEMENTS OF BUDGETARY RESOURCES

                                                                   FY 2009         FY 2008
    Budgetary Resources
    Unobligated Balance – Beginning of Period                      $962,304,024    $2,256,142,503
    Recoveries of Prior Years Obligations                             1,029,114          504,898
    Budget Authority:
    Appropriations                                                  875,000,000     1,557,000,000
    Nonexpenditure Transfers, Net, Anticipated and Actual             (679,000)      (10,810,404)
    Permanently Not Available (Note 8)                                        0      (70,611,700)
    Total Budgetary Resources                                    $1,837,654,138    $3,732,225,297


    Status of Budgetary Resources
    Obligations Incurred
      Direct                                                     $1,050,551,545    $2,769,921,274
    Unobligated Balance Available                                    56,176,028      780,796,905
    Unobligated Balance Not Available                               730,926,565      181,507,118
    Total Status of Budgetary Resources                          $1,837,654,138    $3,732,225,297


    Change in Obligated Balance
    Obligated Balance, Net – as of October 1, 2008
    Unpaid Obligations, Brought Forward, October 1               $5,583,344,174    $3,287,907,145
    Obligations Incurred                                           1,050,551,545    2,769,921,274
    Gross Outlays                                                  (764,670,301)    (473,979,346)
    Recoveries of Prior Year Unpaid Obligations, Actual              (1,029,114)        (504,898)
    Obligated Balance, Net – End of Period
    Unpaid obligations                                           $5,868,196,304    $5,583,344,174
    Net Outlays
    Gross Outlays                                                  $764,670,301     $473,979,346

   The notes are an integral part of these financial statements.




                                                            32
STATEMENTS OF NET COSTS

                              Program                              FY 2009        FY 2008
    Program Costs (Note 7)
    Compact
    Gross Costs                                                    $533,740,058   $226,498,265
    Less: Earned Revenue                                                     0              0
    Net Program Costs                                               533,740,058    226,498,265
    609 (g) Programs
    Gross Costs                                                      15,693,976      9,768,972
    Less: Earned Revenue                                                     0              0
    Net Program Costs                                                15,693,976      9,768,972
    Threshold Programs
    Gross Costs                                                     120,372,199    118,903,902
    Less: Earned Revenue                                                     0              0
    Net Program Costs                                               120,372,199    118,903,902
    Due Diligence Programs
    Gross Costs                                                      28,922,102     17,338,771
    Less: Earned Revenue                                                     0              0
    Net Program Costs                                                28,922,102     17,338,771
    Audit
    Gross Costs                                                       3,792,544      2,304,181
    Less: Earned Revenue                                                     0              0
    Net Program Costs                                                 3,792,544      2,304,181
    Administrative
    Gross Costs                                                      91,746,536     85,782,157
    Less: Earned Revenue                                                     0              0
    Net Program Costs                                                91,746,536     85,782,157
    Program Costs – Net of All Programs                            $794,267,415   $460,596,248
    Net Costs of Operations                                        $794,267,415   $460,596,248

   The notes are an integral part of these financial statements.




                                                    33
STATEMENTS OF CHANGES IN NET POSITION

                                                                   FY 2009          FY 2008
    Cumulative Results of Operations
    Beginning Balances                                               $6,839,070        $7,395,351
    Adjustments                                                                        (1,671,357)
    Beginning Balance, as Adjusted                                    6,839,070          5,723,994
    Budgetary Financing Sources
    Appropriations Used                                            $790,382,685      $460,060,774
    Other Financing Sources
    Donations and Forfeitures of Property (Note 1P)                     205,266                 0
    Imputed Financing                                                 1,789,515          1,650,550
    Total Financing Sources                                         792,377,466       461,711,324
    Net Cost of Operations                                         (794,267,415)     (460,596,248)
    Net Change                                                       (1,889,949)         1,115,076
    Cumulative Results of Operations                                 $4,949,121        $6,839,070


    Unexpended Appropriations
    Beginning Balance                                          $6,548,610,190       $5,536,714,361
    Adjustments                                                                0       (3,621,292)
    Correction of errors                                                     (39)               0
    Beginning Balance, as Adjusted                             $6,548,610,151       $5,533,093,069
    Budgetary Financing Sources
    Appropriations Received                                        $875,000,000     $1,557,000,000
    Appropriations Transferred In/Out                                  (679,000)      (10,810,404)
    Other adjustments (Note 8)                                                 0      (70,611,700)
    Appropriations Used                                            (790,382,685)     (460,060,774)
    Total Budgetary Financing Sources                                83,938,315      1,015,517,122
    Total Unexpended Appropriations                            $6,632,548,466       $6,548,610,190
    Net Position                                               $6,637,497,587       $6,555,449,260

   The notes are an integral part of these financial statements.




                                                      34
NOTES TO FINANCIAL STATEMENTS (AS OF SEPTEMBER 30, 2009)

   NOTE 1—SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
   A. BASIS OF PRESENTATION
         The accompanying financial statements have been prepared to report the financial
         position, results of operations and budgetary resources for MCC as required by OMB
         Circular A-136, Financial Reporting Requirements, for form and content and in
         accordance with Section 613 of the Millennium Challenge Act of 2003, as amended, and
         the Government Corporation Control Act (31 U.S.C. §9106). These financial statements
         have been prepared from MCC’s books and records and are presented in accordance with
         the applicable requirements of OMB, the Secretary of the Treasury, and the Government
         Management and Reform Act of 1994.

          MCC’s accounting policies conform to and are consistent with Generally Accepted
          Accounting Principles for the Federal Government, as promulgated by OMB and
          prescribed by the Federal Accounting Standards Advisory Board.

          MCC’s principle financial statements are:

                  ` Balance Sheet;
                  ` Statement of Net Cost;
                  ` Statement of Budgetary Resources; and
                  ` Statement of Changes in Net Position.

          Financial statement footnotes are also included and considered an integral part of the
          financial statements.

   B. REPORTING ENTITY
         MCC was formed in January 2004 pursuant to the Millennium Challenge Act of 2003, as
         amended, (Public Law 108-199). MCC’s mission is to reduce poverty by supporting
         sustainable, transformative economic growth in developing countries that create and
         maintain sound policy environments. Assistance is intended to provide economic growth
         and alleviate extreme poverty, strengthen good governance, encourage economic
         freedom, and promote investments in people.

   C. BUDGETS AND BUDGETARY ACCOUNTING
         MCC’s programs and activities are funded through no-year appropriations. Such funds
         are available for obligation without fiscal year limitation and remain available until
         expended. MCC has attained total appropriations of $875 million and $1.557 billion in
         FY 2009 and FY 2008, respectively. OMB apportions MCC administrative funds on an
         annual basis pursuant to statutory limitations in the appropriations bill. In addition, MCC


                                                  35
       receives from OMB a separate apportionment of funds for administrative and audit
       oversight, compact programs, due diligence programs, 609(g) programs and threshold
       programs. MCC does not have any earmarked funds. Because of the no-year status of
       MCC appropriations, unobligated administrative, audit, and due diligence funds
       (apportioned on annual bases) are not returned to the Treasury; however, unobligated
       balances as of September 30 for these three categories of funds are transferred to the
       program fund category at the beginning of the subsequent fiscal year.

D. BASIS OF ACCOUNTING
      Financial transactions are recorded on accrual and budgetary bases in accordance with
      pertinent federal accounting and financial reporting requirements. Under the accrual
      method of accounting, financing sources are recognized when used and expenses are
      recognized when incurred, without regard to receipt or payment of cash. Budgetary
      accounting facilitates MCC’s compliance with legal constraints and controls over the use
      of Federal funds.
       The accompanying Balance Sheet, Statement of Net Cost, and Statement of Changes in
       Net Position are prepared on the accrual basis. The Statement of Budgetary Resources is
       prepared in accordance with budgetary accounting rules.

E. FUND BALANCE WITH TREASURY
      MCC does not maintain cash in commercial bank accounts. Rather, MCC’s funds are
      maintained in Treasury accounts. The Department of the Treasury processes all cash
      receipts and disbursements for MCC. The fund balances with Treasury represent no-year
      funds, which are maintained in appropriated funds that are available to pay current and
      future commitments.

F. ACCOUNTS PAYABLE
      MCC records as liabilities all amounts due to others as a direct result of transactions or
      events that have occurred. Accounts payable represent amounts due to Federal and non-
      Federal entities for goods and services received by MCC, but not paid at the end of the
      accounting period. In order to appropriately depict a comparable analysis of FY 2008
      activity, MCC reclassified its Federal accounts payable balances separately from its non-
      Federal balances. Accounts payable reported at the end of FY 2009 were $56 million
      (non-Federal) and $230K (Federal) and at the end of FY 2008 were $35.3 million (non-
      Federal) and $5K (Federal).

G. ACTUARIAL FECA LIABILITY
      The Federal Employees’ Compensation Act (FECA) provides income and medical cost
      protection to covered Federal civilian employees injured on the job, employees who have
      incurred a work-related occupational disease, and beneficiaries of employees whose
      deaths are attributable to a job-related injury or occupational disease.



                                               36
       Claims incurred for benefits for MCC employees under FECA are administered by the
       Department of Labor (DOL) and later billed to MCC. MCC’s actuarial liability for
       workers’ compensation includes any costs incurred but unbilled as of year-end, as
       calculated by DOL, and is not funded by current appropriations.

       MCC incurred no FECA liabilities during FY 2009 and FY 2008.

H. ACCRUED ANNUAL LEAVE
      The value of employees’ unused annual leave at the end of each fiscal quarter is accrued
      as a liability. At the end of each fiscal quarter, the balance in the accrued annual leave
      account is adjusted to reflect current pay rates and leave balances. Annual leave is funded
      from current appropriations. Sick leave and other types of non-vested leave are expensed
      when used and, in accordance with Federal requirements, no accruals are recorded for
      unused leave.

I. NET POSITION
       Net position is composed of unexpended appropriations and cumulative results of
       operations. Unexpended appropriations are funds appropriated by Congress to MCC that
       are still available for expenditure at the end of the fiscal year. Cumulative results of
       operations represent the net differences between financing sources and expenses since
       MCC’s inception. MCC adjusted the FY 2009 beginning balance for unexpended
       appropriations by $39 to account for an error correction.

J. FINANCING SOURCES
       Per note 1.C, MCC funds its program and operating expenses through no-year
       appropriations. Appropriations are recognized as an accrual-based financing source at
       the time they are used to pay program or administrative expenses, except for expenses to
       be funded by future appropriations.

K. RETIREMENT BENEFITS
      MCC’s employees participate in either the Civil Service Retirement System (CSRS) or
      the Federal Employees Retirement System (FERS). FERS was established by Public
      Law 99-335. Pursuant to this law, most U.S. Government employees hired after
      December 31, 1983, are covered by FERS and Social Security. Federal employees hired
      prior to January 1, 1984, were allowed to elect whether they desired to participate in
      FERS (with Social Security coverage) or remain in CSRS. For employees covered by
      CSRS, MCC contributes seven percent of their gross pay toward their retirement benefits.
      For those employees covered by FERS, MCC contributes 11 percent of their gross pay
      toward retirement. Employees are also allowed to participate in the Federal Thrift
      Savings Plan (TSP). For employees under FERS, MCC contributes an automatic one
      percent of basic pay to TSP and matches employee contributions up to an additional four
      percent of pay, for a maximum MCC contribution amounting to five percent of pay.



                                               37
       Employees under CSRS may participate in the TSP, but will not receive either MCC’s
       automatic or matching contributions.

       As of the end of FY 2009, MCC made retirement contributions of $116,000 to CSRS,
       $2.58 million to FERS, and $1.01 million to TSP.

L. USE OF ESTIMATES
       The preparation of financial statements requires management to make estimates and
       assumptions that affect the reported amounts of assets and liabilities, the disclosure of
       contingent assets and liabilities at the date of the financial statements, and the reported
       amounts of financing sources and expenses during the reporting period. Actual results
       could differ from such estimates.

M. CONTINGENCIES
      MCC can be a party to various routine administrative proceedings, legal actions, and
      claims brought by or against it, including threatened or pending litigation involving labor
      relations claims, some of which may ultimately result in settlements or decisions against
      MCC. In the opinion of MCC’s management and legal counsel, there are no proceedings,
      actions, or claims outstanding or threatened that would materially impact MCC’s
      financial statements.

N. JUDGMENT FUND
      Certain legal matters to which MCC can be named as a party may be administered and, in
      some instances, litigated and paid by other Federal agencies. In general, amounts paid in
      excess of $2,500 for Federal Tort Claims Act settlements or awards pertaining to these
      litigations are funded from a special appropriation administered by the Department of the
      Treasury, called the Judgment Fund. Although the ultimate disposition of any potential
      Judgment Fund proceedings cannot be determined, management expects that any liability
      or expense that might ensue would not be material to MCC’s financial statements.

O. CUSTODIAL LIABILITIES
      Under current policy and procedures, MCC disburses funds for Compact and pre-
      Compact projects and activities upon the presentation of a valid invoice. However, under
      certain conditions, MCC will fund countries by advancing funds on an as-needed basis to
      cover basic needs. Such funds provided to the countries are required to be deposited in
      interest-bearing accounts, if legally feasible, until disbursed. The interest earned on these
      accounts is remitted to MCC by the MCA and is then returned to the Treasury’s general
      funds. MCC received and deposited $213,000 and $1.61 million in interest remittances
      as of September 30, 2009 and 2008, respectively. This reduction of interest remittances
      is due to the full implementation of ITS with all MCC partner countries.




                                                 38
P. DONATED SERVICES
      MCC may on occasion utilize donated services from other Federal agencies, individuals
      and private firms in the course of business operations. The approximate fair market value
      of donated services for September 30, 2009 was $205,266. MCC did not utilize donated
      services for FY 2008.

Q. TRANSFERS WITH OTHER FEDERAL AGENCIES
      MCC is a party to allocation transfers with another Federal agency as a transferring
      entity. Allocation transfers are legal delegations by one department of its authority to
      obligate budget authority and outlay funds to another department. A separate fund
      account (allocation account) is created in the U.S. Treasury as a subset of the parent fund
      account for tracking and reporting purposes. All allocation transfers of balances are
      credited to this account, and subsequent obligations and outlays that are incurred by the
      child entity are charged to this allocation account, as they execute the delegated activity
      on behalf of the parent entity. Generally, all financial activity related to these allocation
      transfers (e.g., budget authority, obligations, outlays) is reported in the financial
      statements of the parent entity, from which the underlying legislative authority,
      appropriations, apportionments are derived.

       MCC allocates funds, as the parent, to USAID. In FY 2009 and FY 2008, MCC
       transferred budgetary authority of $33 million and $110 million, respectively, to USAID
       to administer Threshold and Compact programs. USAID receives these allocations as
       transfers-in and reports quarterly to MCC as the child. MCC also transfers an
       administrative fee to USAID for the purposes of administering the Threshold and
       Compact programs. Since FY 2008, these administrative fee transfers are not reported
       back to MCC.

NOTE 2—FUND BALANCE WITH TREASURY
      The U.S. Treasury accounts for all U.S. Government cash on an overall consolidated
      basis. MCC is appropriated “general” funds only and maintains theses balances in the
      Fund Balance with Treasury. The general fund line items on the Balance Sheet for
      September 30, 2009 and 2008 consisted of the amounts presented in Exhibit 13. The
      status of the general fund balances is summarized by obligated, unobligated and Non-
      Budgetary fund balances in Exhibit 14.

                      Exhibit 13: Fund Balance with Treasury as of September 30

                                          September 30, 2009        September 30, 2008
                                            (in thousands)            (in thousands)
            Fund Balances
            General Funds                         $6,655,512                 $6,546,857
            Total                                 $6,655,512                 $6,546,857




                                                 39
                    Exhibit 14: Status of Fund Balance with Treasury as of September 30

                                             September 30, 2009        September 30, 2008
                                               (in thousands)            (in thousands)
            Status of Fund Balance with Treasury
            Unobligated Balance
                  Available                              $56,176                  $782,006
                  Unavailable                            730,927                   181,507
            Obligated Balance                        $5,868,196                 $5,583,344
            Non-Budgetary FBWT                              213
            Total                                    $6,655,512                 $6,546,857



NOTE 3—ACCOUNTS RECEIVABLE, NET
      Accounts receivable reflect overpayments of payroll, travel and other MCC current and
      former employee expenses. It also reflects substantiated disallowed MCA expenditures.
      MCC does not record an allowance for doubtful accounts as these expenses are deemed
      wholly collectible. Total receivables as of the end of FY 2009 and FY 2008 were
      approximately $90,000 and $55,000, respectively.

NOTE 4—GENERAL PROPERTY, PLANT AND EQUIPMENT (PP&E), NET
      MCC’s PP&E costs are the associated leasehold improvements made to its leased office
      space. MCC has made significant leasehold improvements to its office space and
      amortizes the improvements based on the in-service (invoice) date of the improvement.
      Amortization on that in-service improvement is calculated on a quarterly basis. The cost
      of these improvements for both FY 2009 and FY 2008 was $10.9 million. Accumulated
      depreciation was approximately $4.0 million and $2.8 million, respectively. The current
      book value is $6.95 million and $8.1 million for the periods ending September 30, 2009
      and 2008, respectively. The useful life of the improvements is based on the lease terms:
      ten years for the Bowen building lease and eight years for the City Center building lease.

       MCC’s capitalization threshold for all other general property, plant and equipment must
       have an original cost of $50,000 or more and an estimated useful life of five or more
       years. MCC’s software capitalization threshold defines a capitalized asset that has an
       original cost of $200,000 or more and an estimated useful life of five years or more and
       the information technology infrastructure capitalization threshold defines a capitalized
       asset as having an original cost of $200,000 or more and an estimated useful life of three
       years or more. These Thresholds reduce MCC’s administrative costs associated with
       accounting for PP&E, and result in increased operational efficiency.

NOTE 5—ADVANCES
      Advances reflect amounts provided to Compact countries and other Federal agencies in
      accordance with formal Compacts or inter-agency agreements. In order to appropriately


                                                    40
       depict a comparable analysis of 2008 activity, MCC reclassified its Federal advances
       separately from its non-Federal balances. MCC reported $38.9 million ($6.5 million,
       Federal and $32.4 million, non-Federal) and $42.6 million ($9.5 million, Federal and
       $33.1 million, non-Federal) in advances as of September 30, 2009 and 2008, respectively.

NOTE 6—LEASES
      MCC leases office space in two adjacent locations in Washington, D.C. These operating
      leases are on ten year (Bowen Building) and eight year (City Center Building) lease terms
      that terminate on May 25 and May 26, 2015, respectively. The Bowen building lease
      increases approximately one percent each year of the lease term. The City Center
      building lease increases at a fixed level every three years until the termination of the
      lease.

       MCC also has short term leases for one (1) corporate vehicle (through May 31, 2010) and
       for eighteen (18) office copier machines (through January 31, 2012) utilized in both
       buildings. The future lease payments due are depicted in the Exhibit 15 below.

                                   Exhibit 15: Operating Leases

                               Future Lease Payments Due (in dollars)
 Fiscal Year                                         Bowen              City Center      Total
 FY 2010                                               5,557,542          1,889,524     7,447,066
 FY 2011                                               5,613,117          1,942,376     7,555,493
 FY 2012                                               5,669,249          1,942,376     7,611,625
 FY 2013                                               5,725,941          1,942,376     7,668,317
 FY 2014                                               5,783,201          1,995,229     7,778,430
 FY 2015                                               5,841,033          1,995,229     7,836,262
 Total Future Lease Payments                         $34,190,083        $11,707,110   $45,897,193
                               Future Lease Payments Due (in dollars)
 Fiscal Year                                     MCC Vehicle        MCC Copiers          Total
 FY 2010                                                   5,009            55,821        60,830
 FY 2011                                                      0             55,821        55,821
 FY 2012                                                      0             55,821        55,821
 Total Future Lease Payments                             $5,009           $167,463      $172,472



NOTE 7—INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE
      The Statement of Net Cost reports the MCC’s gross cost less earned revenues to arrive at
      net cost of operations. Costs have been illustrated by MCC funded programs. Exhibit
      16 shows the value of exchange transactions between MCC and other Federal entities, as
      well as non-Federal entities. Intra-governmental costs relate to transactions between the



                                                41
           MCC and other Federal entities. Public costs relate to transactions between the MCC and
           non-Federal entities. MCC does not have any exchange revenues.


                  Exhibit 16: Intra-governmental Costs and Exchange Revenue (in thousands)




                                                                                    Administrative
                                                        Due Diligence
                                                                                                      FY 2009      FY 2008

                                          Threshold
                  Compact




                                                                                                        Total        Total
                              609(g)




                                                                          Audit
                                                                                                         (in          (in
                                                                                                     thousands)   thousands)
Intra-
                  16           -        5,683          6,601            2,022     14,512               28,834      19,089
Governmental
Public          533,724     15,694     114,689        22,321            1,771     77,234              765,433      441,507
Total -
Program        $533,740     $15,694    $120,372       $28,922           $3,793    $91,746            $794,267     $460,596




    NOTE 8—ADJUSTMENTS TO BEGINNING BALANCE OF BUDGETARY RESOURCES
          At the beginning of FY 2008, $12.6 million of amounts appropriated under the Foreign
          Operations, Export Financing and Related Programs Appropriations Act were rescinded.
          The rescission was part of the across-the-board rescission enacted for FY 2008. MCC
          was also subject to a mid-fiscal year 2008 rescission of $58 million. MCC was not
          subject to any rescissions in FY 2009.

    NOTE 9—EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
    RESOURCES AND THE BUDGET OF THE U.S. GOVERNMENT
         MCC ensures that the information reported in its books is reflected within the Budget of
         the U.S. Government. Since MCC’s financial statements are published before the
         President’s Budget, this reconciliation is based on the Statement of Budgetary Resources
         for FY 2008 and the FY 2008 actual data reported in the President’s 2010 budget
         submission. Fiscal year 2009 actual data will be published in February 2010 within the
         2011 Budget of the United States. No material differences were noted.

    NOTE 10—UNDELIVERED ORDERS AT THE END OF THE PERIOD
          Exhibit 17 presents Undelivered Orders, paid and unpaid, as of September 30, 2009 and
          2008.




                                                        42
                                         Exhibit 17: Undelivered Orders

                        Undelivered Orders             2009                     2008
                       Administrative                    27,268,537               27,302,437
                       Audit                                1,131,689              2,180,340
                       609(g)                            42,422,624               25,349,832
                       Due Diligence                     60,123,947               49,203,177
                       Program                        5,563,885,135            5,242,750,204
                       Threshold                        148,518,787              238,174,754
                       Total                         $5,843,350,719           $5,584,960,744



NOTE 11—RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
      Exhibit 18 reconciles the resources available to MCC to finance operations with the net
      cost of operating MCC’s programs. Some operating costs, such as depreciation, do not
      require direct financing sources. This exhibit illustrates the reconciliation of Net Cost of
      Operations to Budget.

                          Exhibit 18: Reconciliation of Net Cost of Operations to Budget

     Resources Used to Finance
            Activities                                                  Program Costs
 Budgetary Resources Obligated
Obligations Incurred                         1,050,551,545      Gross Costs                     794,267,415
Recoveries of prior year unpaid                 (1,029,114)
obligations
Other financing resources                        1,994,782
Total resources used to finance              1,051,517,213
activities
Total resources used to finance items        (258,466,266)      Less: Earned Revenue                    -
not part of the net cost of operations
Total components of net cost of                  1,216,468
operations that will not require or
generate resources
 Net Cost of Operations                       $794,267,415      Net Cost of Operations         $794,267,415




                                                       43
Summary of Financial Statement Audit and Management Assurances

In accordance with the requirements of OMB Circular A-136, MCC is required to prepare a
summary of its financial statement audit. The FY 2009 Independent Auditor’s report cited one
material weakness in MCC’s controls over mission activities and support. MCC resolved its FY
2008 material weakness. Exhibit 19 provides a summary of the status of MCC Financial
Statement Audit Material Weaknesses.

                           Exhibit 19: Summary of Financial Statement Audit


Audit Opinion            Unqualified

Restatement              No

Material Weaknesses        Beginning       New         Resolved       Consolidated   Ending
                            Balance                                                  Balance


Quality Control Over           1             -            1                   -        0
Financial Reporting
Controls over Mission          0             1            -                   -        1
Activities and Support
Total Material                 1             1            1                   -        1
Weaknesses




                                                 44
Office of Inspector General


Mr. Darius Mans                                                   November 16, 2009
Acting Chief Executive Officer
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Dear Mr. Mans:

       The enclosed statement summarizes the Office of Inspector General’s (OIG) conclusions
on the most serious management and performance challenges facing the Millennium Challenge
Corporation (MCC). Our decisions on which challenges to report were based primarily on audit,
evaluation, or investigative work we have performed and additional analysis of MCC operations.
More challenges may exist in areas that we have not yet reviewed, and other significant findings
may result from further work.

       The Reports Consolidation Act of 2000 (Public Law 106–531) requires that agency
performance and accountability reports include a statement prepared by each agency’s inspector
general, summarizing the most serious management and performance challenges facing the
agency and reporting the agency’s progress in addressing those challenges. The enclosed
statement will be included in MCC’s fiscal year 2009 performance and accountability report or
agency financial report.

       We have discussed the management and performance challenges summarized in this
statement with the responsible MCC officials. If you have any questions or wish to discuss the
statement further, please contact me or Alvin Brown, the Assistant Inspector General for MCC.

                                            Sincerely,



                                            Donald A. Gambatesa /s/
                                            Inspector General

Enclosure

U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig



                                               45
                   Statement by the Office of Inspector General on the
                           Millennium Challenge Corporation’s
                  Most Serious Management and Performance Challenges
                                    Fiscal Year 2009



The Office of Inspector General (OIG) has determined that the Millennium Challenge
Corporation (MCC) faces management and performance challenges in the following areas:

   •   MCC Suspended, Terminated, and Canceled Planned Compact Activities
   •   Threshold Programs for Compact Eligibility
   •   Financial Management
   •   Information Technology Management

For fiscal year (FY) 2009, the Office of Inspector General (OIG) is reporting “MCC Suspended,
Terminated, and Canceled Planned Compact Activities” and “Threshold Programs” as serious
management and performance challenges for the first time. OIG initially reported challenges in
the “Financial Management” and the “Information Technology Management” areas in FY 2008.
While MCC has made some improvements in the areas of financial management and information
technology management, both continue to represent serious management challenges for MCC.

We had reported “Implementation of Compacts” as a serious management challenge for MCC in
FY 2008. At that time, MCC was experiencing serious management challenges due to the low
rate of disbursements and the increasing costs associated with infrastructure projects. MCC has
increased its rate of disbursements through the implementation of a new compact development
process. As a result of these improvements, we have not included “Implementation of
Compacts” as a serious management challenge for FY 2009. OIG will continue to monitor the
implementation of compacts.

MCC Suspended, Terminated, and Canceled Planned Compact Activities

In 2009, MCC suspended, terminated, or canceled a total of $340 million in planned activities in
5 of the 19 compact countries because of political unrest in and around those countries. MCC
has suspended or terminated activities because of the removal of democratically elected leaders
(in two cases) and patterns of undemocratic actions involving the 2008 elections (in two other
cases). As a result, activities totaling $152 million were terminated. In another case, a
neighboring country would not allow the compact country to meet the compact requirements,
which resulted in the cancellation of a $188 million project. During FY 2009, MCC has
suspended, terminated, or canceled compact activities in the following countries:

   •   Madagascar. On March 17, 2009, Madagascar removed its democratically elected
       president from office. MCC’s board determined that the nature of the actions taken
       represented a pattern of actions inconsistent with MCC’s eligibility indicator for the


                                               46
       “Ruling Justly” category. As a result, MCC placed an operational hold on activities on
       March 20, 2009. The compact was terminated on August 31, 2009. As a result, MCC
       will deobligate $21 million to $23 million.

   •   Honduras. On June 28, 2009, Honduras removed its democratically elected president
       from office. The Government of Honduras (GOH) failed to address concerns regarding
       its commitment to democracy. MCC continued to assist the GOH with an agricultural
       irrigation project to maintain poverty reduction for the rural poor. In September 2009,
       the MCC board terminated a component of a rural roads rehabilitation project that had
       not yet begun, which resulted in a reduction of $11 million (approximately 5 percent) of
       the initial compact.

   •   Nicaragua. Because of a pattern of undemocratic actions involving elections in late
       2008, MCC partially terminated its compact with Nicaragua. In February 2009, the MCC
       board voted to terminate funding for a property regularization project implemented by the
       Government of Nicaragua and for a major road rehabilitation activity that had not begun.
       MCC will complete the projects that were underway, including rehabilitation of roads
       that were already under contract and rural business development projects that have a
       direct impact on the rural poor. As a result of the termination, the total assistance was
       reduced by approximately $61 million (approximately 35 percent) of the initial compact
       of $175 million.

   •   Armenia. Because of a pattern of undemocratic actions involving elections in early
       2008, MCC placed an operational hold on a rural roads rehabilitation project. The MCC
       board confirmed the operational hold in February 2009. MCC will continue the irrigated
       agriculture project to maintain poverty reduction for the rural poor. At this late stage in
       the compact, it will be impossible to restart the rural roads rehabilitation project.
       Accordingly, the initial compact amount of $235 million will be reduced by $59 million
       (approximately 25 percent).

   •   Mongolia. On April 27, 2009, the Government of Mongolia officially notified MCC of
       its need to cancel a rail project that had accounted for $188 million of the $285 million
       compact. The rail project was canceled because the Russian members of UBTZ, the joint
       Mongolian-Russian rail company, would not allow an audit of the company to proceed.
       Although MCC is considering alternative projects to fund in Mongolia, it has told the
       Government of Mongolia that there is no guarantee that all of the funds will remain in the
       compact.

The actions mentioned above represent very serious management challenges that will persist
because of the nature of MCC’s mission. MCC has established a set of indicators that a country
must meet in order to become eligible for a compact. However, because MCC operates in the
dynamic environments of developing countries, the political environment will be an ongoing
management challenge as compacts are carried out over a 5-year period.




                                               47
Threshold Programs for Compact Eligibility

As stated in our audit of the Threshold Program (M-009-003-P, April 29, 2009), MCC had
provided about $440 million in funding for threshold programs to assist 12 countries to become
compact eligible. However, we found no clear indication that the MCC Threshold Program was
assisting countries in becoming compact eligible. For example:

   •   Eight of the 12 countries that will complete threshold programs as of the end of FY 2009
       became compact eligible before completing their threshold programs (for those
       completed by the end of FY 2009). Three of the eight countries became eligible as early
       as 1 month before or after their threshold program started.

   •   Three of the 12 countries did not become compact eligible. Two of the three countries
       did not become eligible after completing their first threshold programs; instead, MCC
       approved another threshold agreement (stage II).

   •   One of the 12 countries received compact assistance about 11 months before its threshold
       program ended.

Some countries have also become compact eligible and received compacts without participating
in the Threshold Program. MCC measured the program results by changes in the countries’
“Control of Corruption” indicator scores, but the changes were not clearly attributable to MCC’s
efforts. MCC is reviewing the Threshold Program to determine whether the existing program
can achieve the objective of helping countries become compact eligible.

Financial Management

For FY 2009—the sixth consecutive year—OIG has issued unqualified opinions on MCC’s
FY financial statements. Notwithstanding these unqualified opinions and the progress that MCC
has made in establishing and maintaining financial management processes, MCC’s quality
control over quarterly and yearend financial reporting is not sufficient to enable it to detect errors
and misstatements and to make corrections in a timely manner. MCC does not perform
sufficiently detailed quality-control reviews over yearend MCC trial balances and financial
statements submitted for review and audit.

The vast majority of MCC’s activities and expenses occur in the compact and threshold
programs. These programs are implemented by MCC’s Millennium Challenge Account (MCA)
entities and USAID’s overseas missions. MCC did not adequately monitor these organizations’
ongoing activities or the financial information being reported on its own financial statements.
The MCA entities responsible for implementing the compact programs, as well as the USAID
missions responsible for implementing MCC’s threshold programs, did not respond adequately
to requests for supporting documentation for expenses reported to MCC. During our audit, we
noted the following weaknesses:




                                                 48
   •   MCA Audits Lack Timely Completion and Monitoring. Audits performed by
       independent auditors of the controls, transactions, and balances of MCA entities have not
       been completed and submitted to OIG in a timely manner. In addition, MCC has not
       monitored the start and completion of these audits adequately to ensure a timely
       submission of audit reports and notification of findings. This situation increases MCC’s
       risk of not being informed of MCA entity activities that would affect timely preparation
       of financial statements.

       To ensure sufficient internal control over the MCA entities, MCC requires semiannual
       audits to be conducted for the 6-month periods ending in June and December of each
       year. The audit results assure MCC of the validity and accuracy of payments and
       advances that are processed for the MCA entities and reported in its financial statements.
       This assurance is needed because neither MCC nor its accounting service provider, the
       U.S. Department of Interior’s National Business Center, reviews or maintains invoices
       and other underlying supporting documentation for transactions. Instead, MCC relies on
       approved request documents submitted by personnel of the MCA entity.

   •   Transactions Lack Adequate Documentation. MCA entities and threshold missions
       did not provide or respond to requests for supporting documentation in a timely manner
       for all expenses and undelivered orders. The audit team informed MCC that, prior to
       yearend testing, documentation would be requested from MCA entities and threshold
       missions to substantiate yearend balances and that responses would be required within
       5 days to meet tight audit deadlines. This detailed written information was
       communicated to all points of contact for MCA entities and USAID threshold missions.

       Upon submission of the supporting documents, some MCA entities and threshold
       missions responded in a timely manner, but others provided incorrect or insufficient
       documentation or none at all. MCC was advised of the lack of responses and in turn sent
       several emails to MCA entities and threshold missions requesting their cooperation.
       However, significant numbers of transactions remained unsupported at the conclusion of
       audit fieldwork. These issues were raised, and recommendations made, in the audit of
       MCC’s FY 2009 Financial Statements (M-000-010-001-C, November 16, 2009).

In conclusion, MCC officials commented that MCC will implement measures to improve quality
control in accordance with OIG’s recommendations.

Information Technology Management

Although MCC has made improvements to strengthen its information security program, it is still
not fully compliant with the key components of the Federal Information Security Management
Act of 2002 (FISMA). FISMA requires agencies to (1) develop, document, and implement
agencywide information security programs to protect their information and information systems,
including those provided or managed by another agency, contractor, or other source; (2) obtain
an annual independent evaluation of information security programs and practices; and (3) assess
compliance with the requirements of the act. Although MCC is making progress in complying
with these requirements, weaknesses remain.

                                               49
MCC developed and implemented a comprehensive plan that addressed all but one of the
FY 2008 FISMA audit findings. However, the FY 2009 FISMA audit found several areas in
which MCC needs to strengthen existing policies and develop procedures to fully comply with
requirements of the National Institute of Standards and Technology and the Office of
Management and Budget. MCC noted that it has a comprehensive plan to address all of the
FY 2009 FISMA audit findings by April 2010.




                                             50
TO:               Alvin A. Brown
                  Assistant Inspector General

FROM:             Michael Casella /s/
                  Acting Vice President, Administration and Finance

DATE:             November 13, 2009

SUBJECT:          Management Response to Statement by the Office of Inspector
                  General (OIG) on the MCC’s Most Serious Management and
                  Performance Challenges Fiscal Year 2009

We wish to thank the OIG for their recognition of the progress the MCC has made in its
implementation of compacts and our efforts to increase the disbursement rates. In its FY
2009 Statement of MCC’s Most Serious Management and Performance Challenges, the
OIG notes four items:

   •    MCC Suspended, Terminated, and Canceled Planned Compact Activities
   •    Threshold Programs for Compact Eligibility
   •    Financial Management
   •    Information Technology Management

We agree with OIG’s assessment that the unpredictable political environment in
our partner countries will be an ongoing challenge for management and the MCC
Board of Directors. One of MCC’s founding principles is that aid is most
effective when it reinforces good governance. MCC will continue to abide by this
principle as we deal with current and future political challenges.

The Threshold program has a portfolio of 21 programs, several of which have recently
concluded. Due to the varying breadth of activities, countries and implementers, we are
reviewing the program, its intentions, and measures of success. A full report
will be presented to the MCC Board in FY 2010.

We also agree with the OIG’s FY 2009 audit findings and recommendations related to
financial management. While MCC has received unqualified audit opinions since
inception and has made great progress in establishing its financial management
environment, we acknowledge that further improvement is needed.

In FY 2010, we will focus on increased quality control both internally, and with our
implementing partners in compact countries and at USAID.




                                       51
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
